<html>
<title> - MARKUP OF H.R. 1152, SILK ROAD STRATEGY ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
              MARKUP OF H.R. 1152, SILK ROAD STRATEGY ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 22, 1999

                               __________

                           Serial No. 106-95

                               __________

    Printed for the use of the Committee on International Relations





                    U.S. GOVERNMENT PRINTING OFFICE
64-098 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Markup of H.R. 1152, The Silk Road Strategy Act, to amend the 
  Foreign Assistance Act of 1961 to target assistance to support 
  the economic and political independence of the countries of the 
  South Caucasus and Central Asia................................     1

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    18
The Honorable Doug Bereuter, a Representative in Congress from 
  Nebraska.......................................................    19

Bills and Amendments:

H.R. 1152........................................................    22
1. Amendment to H.R. 1152 offered by Mr. Bereuter................    39
2. Amendment to H.R. 1152 offered by Mr. Berman..................    40
3. Amendment to H.R. 1152 offered by Mr. Bereuter (on behalf of 
  Mr. Burr)......................................................    41
4a. Amendment to H.R. 1152 offered by Mr. Rohrabacher............    42
4b. Amendment to H.R. 1152 offered by Mr. Rohrabacher............    42
5. Amendment to the Rohrabacher amendment (4b), offered by Mr. 
  Bereuter.......................................................    43




              MARKUP OF H.R. 1152, SILK ROAD STRATEGY ACT

                              ----------                              


                        Thursday, July 22, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 11:05 a.m. in 
Room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) Presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session pursuant to notice to consider H.R. 
1152. Let me give notice that we will also, by arrangement with 
the Minority, be taking up a unanimous consent request relative 
to the bill we handled yesterday, and I do want to express once 
again my thanks to all of our Members for their extreme 
cooperation in the effort that led us to the passage of H.R. 
2415 yesterday. We really appreciate that.
    We will now consider the Silk Road Strategy Act. The Chair 
lays the bill before the Committee. Clerk will report the title 
of the bill.
    Ms. Bloomer. ``H.R. 1152, a bill to amend the Foreign 
Assistance Act of 1961 to target assistance to support the 
economic and political independence of the South Caucasus and 
Central Asia.''
    Chairman Gilman. Without objection, the first reading of 
the bill will be dispensed with.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, section 1, short title, this act may be----''
    Chairman Gilman. Without objection, the full reading of the 
bill is dispensed with.
    Chairman Gilman. This bill was considered by the 
Subcommittee on Asia and the Pacific and ordered favorably 
reported without amendment on June 23rd. Without objection, the 
bill will be considered as having been read for amendment. It 
is open to amendment at any point.
    I now recognize the sponsor of the bill, the Vice Chairman 
of our Subcommittee on Asia and the Pacific, the distinguished 
gentleman from Nebraska, Mr. Bereuter for five minutes to 
introduce the bill.
    Mr. Bereuter. Thank you, Mr. Chairman. I would ask 
unanimous consent that I may be able to yield the first part of 
my time to Mr. Radanovich, who has an appointment he needs to 
get to promptly, and so without objection I would ask that he 
be able to proceed.
    Chairman Gilman. Without objection.
    Mr. Radanovich. Thank you, Mr. Chairman, and to Mr. 
Bereuter my thanks as well not only for being able to speak, 
but also for your leadership in crafting this legislation and 
bringing it before the Committee for our consideration. I share 
your understanding of the importance of promoting greater 
regional cooperation, supporting increased economic integration 
and facilitating the free flow of transportation and 
communication among the states of the Caucasus in Central Asia. 
I very much appreciate your efforts to advance U.S. National 
interests, particularly in helping to create opportunities for 
U.S. businesses, while also making sure that we promote 
American values in the region. Among these values, of course, 
are supporting the independence of these newly independent 
states such as Armenia, encouraging durable political reforms 
and assisting in the peaceful resolution of conflicts.
    I would like to stress how important it is for this 
legislation and more broadly for all of our diplomatic efforts 
in the region to encourage progress where we see it, but also 
to ensure that we do not reward governments that create 
obstacles to regional cooperation, reject negotiated 
settlements in favor of border closures and aggression, and 
stand in the way of genuine political and economic reform. 
Those who create barriers to progress, who block communications 
and reject peace should not be rewarded by U.S. tax dollars.
    Thank you very much for this opportunity to speak. I 
appreciate it very much.
    Mr. Bereuter. Reclaiming my time, I thank the gentleman for 
his statement and his support, and would continue by saying 
that this legislation was introduced on March 17th of this year 
by this Member along with the distinguished Ranking Member 
Democrat of the Subcommittee, Mr. Lantos, and Mr. Berman and 
Mr. Pitts. It is cosponsored now by Subcommittee Members 
Ackerman, King and Faleomavaega. It was approved by voice vote 
on the Subcommittee level, which has policy jurisdiction over 
only the Central Asia Republics area of the bill, and that was 
done on June 23rd.
    When the breakup of the former Soviet Union occurred in 
1991, Russia became the overwhelming focus of U.S. attention. 
Of course, Russia is the heir of the vast Soviet nuclear 
arsenal, its military might. Russia also retains the Soviet 
permanent seat on the U.N. Security Council and membership in a 
secondary way on the G-8. If the post-Soviet era was to be 
peaceful, we had to get along with Moscow. Thus it is perhaps 
not surprising that U.S. attention, including the Freedom 
Support Act, was overwhelmingly directed at Russia.
    However, the breakup of the former Soviet Union resulted, 
as we know, in the creation of 15 countries. A few countries, 
the Baltic nations and Ukraine, receive special attention 
either in the Freedom Support Act or the Seed Act, which 
addressed Eastern Europe.
    However, the Caucasus and the Central Asia Republics 
received scant attention. This area includes Georgia, Armenia, 
Azerbaijan, Turkmenistan, Uzbekistan, Kazakhstan, Kyrgyzstan 
and Tajikistan. These eight countries have a total population 
of some 75 million and are strategically located at the 
geographic nexus of Russia, China, Iran, Afghanistan and 
Turkey. At least six of these countries are secular Islamic 
states which have in the main rejected efforts to foster 
expanded Islamic fundamentalism. They seek closer relations 
with the West, and they look to the United States for 
leadership and guidance on a host of international issues. 
Importantly, these Islamic states also seek close relations 
with long-standing U.S.-friendly countries in the region like 
Israel and Turkey.
    I believe Mr. Berman will have an amendment at the proper 
time recognizing the relationship with Israel.
    It is important to note that there is much at stake for our 
national security. These are frontline states in the effort to 
combat anti-Western extremism. The nations of the region are 
cooperating on important issues such as counterterrorism, 
counternarcotics and combating the spread of weapons of mass 
destruction. In addition to vast oil and natural gas wealth, 
the region offers the West a supplementary source of oil to 
avoid a predominant reliance on Persian Gulf oil. In short, 
this is a region that is rich with potential resource 
opportunities and also potential instability.
    H.R. 1152 seeks to provide policy direction to U.S. policy 
in the Central Asian Republics and the Caucasus region. It 
outlines what our foreign policy and foreign aid priorities 
should be and what might be the reward for continued 
cooperation with the United States, and it also stipulates what 
actions would result in a termination of assistance.
    I will tell my colleagues that H.R. 1152 does not authorize 
new money, but merely directs funding already provided to these 
eight countries emerging from the former Soviet Union.
    I would also tell my colleagues that this legislation very 
intentionally does not address the difficult question of 
Section 907 of the Foreign Assistance Act, the prohibition of 
assistance in Azerbaijan. That is a conscious decision by this 
Member with the support of Chairman Gilman. Frankly, this is 
too divisive an issue, so it is to be avoided to make way for 
the progress which can spring from this legislation. The 
elements of the legislation are simply too important to allow 
it to be sidetracked because of a Section 907 controversy.
    I want to express my appreciation for the interest and 
support of the Subcommittee's Ranking Democrat, the 
distinguished gentleman from California, and to the other 
Members on both sides of the aisle for cosponsoring this 
legislation. Finally, I also want to thank the Chairman for 
scheduling the markup of this legislation today. Thank you.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you. I would like to commend Mr. 
Bereuter, Mr. Berman, Mr. Ackerman, Mr. Lantos, and others who 
are involved in this effort. It is clear that as Prime Minister 
Barak referenced his own area of the world, this is also a 
dangerous part of the world. It is an area where a number of 
the countries in the region are involved in destabilizing 
activities, and so it is particularly important that we put our 
focus on this area. So much of our focus has been on the former 
Soviet bloc countries and parts of the Soviet Union that were 
closer to central Europe where actually there is much more of a 
force for progress, democracy, human rights and economic 
development. So it is very appropriate that we focus on this 
region, especially when we look at the difficult neighbors in 
the region, Iran, Afghanistan, and China. There are some very 
tough issues that need to be addressed, and I would again 
commend Mr. Bereuter for his efforts on this legislation. It is 
a very appropriate thing to do.
    Chairman Gilman. Any other Members seeking recognition?
    Mr. Rohrabacher.
    Mr. Rohrabacher. I have an amendment.
    Chairman Gilman. We are just on general discussion on the 
measure.
    I support the intent of the measure before us today, the 
Silk Road Strategy Act of 1999, sponsored by our colleague from 
Nebraska, Mr. Bereuter. The Subcommittee on Asia and the 
Pacific, which he chairs, has jurisdiction over the countries 
of Central Asia. The countries of the Caucasus region also 
covered by the bill deserve to be a specific focus of our 
policy and our assistance in the region in the former Soviet 
Union. This bill relating to all eight countries of Central 
Asia and the Caucasus attempts to ensure the implementation of 
that specific focus. While it creates a new chapter 12 of the 
Foreign Assistance Act to provide that focus, however, it cites 
the ongoing authority of chapter 11 of the Freedom Support Act 
of 1992.
    With regard to those countries, and I think that this is 
important, given the key work done by the Office of the State 
Department Coordinator of Assistance that was created by the 
1992 act, this act will ensure that coordinating function 
continues through all of the new independent states of the 
former Soviet Union. It should ensure an added specific focus 
on the states of Central Asia and the Caucasus. Accordingly, I 
support the measure, and Mr. Bereuter is recognized for his 
amendment.
    Mr. Bereuter. Mr. Chairman, the amendment I was going to 
offer is also offered by Mr. Burton, and I would let him offer 
it for several of us.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. I appreciate the gentleman yielding to me. I 
offer this amendment with Mr. Bereuter, Mr. Lantos, you, Mr. 
Gilman, and Mr. Gejdenson. I feel that this amendment is 
extremely important, this legislation which is authored by my 
good friend, the gentleman from Nebraska.
    Chairman Gilman. Mr. Burton, if you will yield a moment, 
the clerk will report.
    Ms. Bloomer. ``The amendment offered by Mr. Burton, page 
13, line 16, strike `or'; page 13, line 21, strike the last 
period and insert `or'; page 13, after line 21, add the 
following: `(5) has not made significant progress toward 
resolving trade disputes.'.''
    Chairman Gilman. The amendment is considered as having been 
read and is open for discussion.
    Chairman Gilman. The Chair recognizes Mr. Burton for five 
minutes.
    Mr. Burton. Thank you again, Mr. Chairman. As I said, this 
legislation offered by my good friend from Nebraska seeks to 
promote free market policies in the new republics of Central 
Asia and the Caucasus, and it will encourage foreign 
investment, increase trade and other forms of commercial ties 
between the countries of these regions and the rest of the 
world. These are very praiseworthy objectives, and legislation 
expressing U.S. support for the fledgling democracies of the 
Silk Road region deserves priority attention. Consequently, I 
support the goals of H.R. 1152, the Silk Road Strategy Act of 
1999.
    At the same time, and Mr. Bereuter and the others agree, 
however, many companies from OECD countries including the U.S., 
with substantial direct investments in several of the Silk Road 
countries, are not being accorded fair treatment. Investment 
contracts are not being honored. Export permits are not being 
issued, and de facto nationalizations of foreign investment 
have occurred. In several instances, formal complaints have 
been lodged by investors through U.S. and other embassies in 
the region. Yet H.R. 1152 is, but won't be in the future, 
silent on the need to protect U.S. and other foreign 
investment.
    I am concerned or was concerned that without specific 
language conditioning U.S. assistance on the fair treatment of 
foreign investors, adoption of the Silk Road Bill could cause 
the beneficiary governments to conclude that they have a green 
light to renege on commitments to foreign investors, thus 
jeopardizing hundreds of millions of dollars of investments.
    Legislation in support of the Silk Road countries should 
not be passed at any cost, and care should be taken to ensure 
that the legislation does not do more harm than good. 
Accordingly, I believe that the various types of U.S. 
assistance that would be authorized in the Silk Road bill 
should be conditioned on the progress that a recipient country 
is making in resolving existing investment and other trade 
disputes. This amendment does this, and this amendment would 
make a Silk Road country ineligible for assistance if the 
President determines such country has not made significant 
progress toward resolving trade disputes registered with and 
raised by the U.S. embassy in such countries.
    This language is very similar to the provision authored by 
Congressman Ron Packard in the fiscal year 1998 Foreign 
Operations Appropriations bill regarding the Ukraine, and it 
got results.
    I am sure that my colleagues would agree that investments 
in the Silk Road region should be protected, and the 
commitments made by companies, by Silk Road governments must be 
honored. I therefore I appreciate the Committee supporting this 
amendment, and this amendment in no way undercuts the thrust of 
the underlying bill. In fact, I believe that this amendment 
adds to the value of this very important statement of policy 
toward the important countries of the Silk Road region, and I 
congratulate Mr. Bereuter for this bill.
    Chairman Gilman. Thank you, Mr. Burton.
    Chairman Gilman. Any other Member seeking recognition?
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I have a statement with some 
examples of problems in the past, and I would ask unanimous 
consent that it be inserted in the record at this point.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Thank you, Mr. Chairman. I would just extend 
by saying I appreciate Mr. Burton's interest and his effort on 
this, along with the leadership of the Subcommittee and the 
Committee on both sides of the aisle. The only consideration I 
had about language on this was whether or not it should be 
``significant progress'' or ``substantial effort,'' and the 
gentleman correctly points out that this is exactly the 
language used by Mr. Packard in a previous appropriation bill. 
Since there is a Presidential waiver here on this legislation 
where there was not in that one, I think this is entirely 
appropriate. I commend my colleagues and many people who have 
helped us on this effort, and I urge my colleagues to support 
the Burton, et al., amendment.
    Chairman Gilman. Thank you, Mr. Bereuter.
    On the amendment, Mr. Rohrabacher.
    Mr. Rohrabacher. Yes. I would like to congratulate Mr. 
Burton on his amendment. I have two amendments, and one touches 
on this area, although it is still necessary, but I would be 
very supportive of Mr. Burton's amendment.
    There are American businessmen who have invested in this 
part of the world, and frankly a lot of the leaders in this 
part of the world do not understand how to deal with business. 
They have been under the Communist system so long, and they 
feel they can get away with the same type of heavy-handed 
approach they have gotten away with with their own people. Mr. 
Burton's amendment will give them a message, especially 
concerning American businessmen.
    For example, I have heard of a deal in Kazakhstan where 
millions of dollars were invested by an American company into a 
uranium project. The Government of Kazakhstan just arrogantly 
pushed them aside and put them in a situation to lose their 
investment, and this can't be tolerated. We have to let people 
know that if they expect to have good relations with the United 
States, they can't just treat American businessmen as if their 
investments in that country can be basically stolen. We are 
talking about when you renege on an agreement, you are stealing 
from somebody because somebody has invested money with an 
understanding.
    So I would hope that Mr. Burton's amendment passes, and I 
hope we are sending a message to Kazakhstan and others that 
they can't treat people this way.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Anyone else 
want to be heard on the amendment?
    I support the amendment offered by the gentleman from 
Indiana which addresses an important issue, as I understand, as 
a result of consultation by its sponsor and Mr. Bereuter, who 
also has an interest in the issue of business disputes in 
Central Asia involving American businesses.
    Any other Members seeking recognition on the amendment?
    The question then is on the Burton amendment. All in favor, 
signify in the usual manner.
    Opposed.
    The ayes have it. The amendment is agreed to.
    Mr. Berman.
    Mr. Berman. I have an amendment at the desk, Mr. Chairman.
    Chairman Gilman. Clerk will distribute the amendment.
    Clerk will read the amendment.
    Which amendment, Mr. Berman?
    Mr. Berman. Do I have more than one?
    Chairman Gilman. Apparently you do.
    Clerk will distribute the amendment.
    Clerk will read the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Berman. Page 17, 
insert the following new section after line 5, section, U.S.-
Israel Economic Development Cooperation in the South Caucasus 
and Central Asia.''
    Mr. Berman. Mr. Chairman, I ask unanimous consent that the 
amendment be considered as read.
    Chairman Gilman. The amendment is considered as read.
    Chairman Gilman. Without objection the gentleman from 
California, Mr. Berman, is recognized for five minutes in 
support of his amendment.
    Mr. Berman. Thank you very much, Mr. Chairman. This 
amendment simply expresses the sense of Congress that we should 
continue our partnership with Israel on valuable economic 
development programs in Central Asia and the Caucasus. At the 
present time a modest amount of assistance is being provided to 
the Israeli MASHAV, a part of their Ministry of Foreign 
Affairs, under the Cooperative Development Program, (CDP). This 
program has allowed the Israelis to share their expertise in 
agriculture, rural development, health and other areas with 
developing countries around the world.
    There is a particular program called the Central Asian 
Republics Program that has been supported dealing with Central 
Asia, the Caucasus. It is really quite an excellent program. 
The Israelis have a great deal to offer in this area. They have 
developed unique expertise in horticulture, water-saving 
technologies, rural health care programs, and I think this 
program is worthy of continuation. It would simply express the 
sense of Congress that these programs in the south Caucasus and 
Central Asia continue.
    Chairman Gilman. Thank you, Mr. Berman.
    Any other Member seeking recognition?
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I support the Berman 
amendment, and I want to say a few things about the importance 
of it. Among the Central Asian Republics in the Caucasus 
region, there are six Islamic states. They are secular, pro-
Western States. They have demonstrated a willingness to work 
with Israel. The history of tolerance for religious minority 
runs deep here. During World War II, tens of thousands of Jews 
fled the advancing German armies into this region. By and large 
they found sympathetic hosts who refused to turn them over to 
the Nazis. This tolerance has resulted in an important, 
positive legacy of respect and potential friendship between 
Israel and these states.
    Good relations between Israel and the secular Islamic 
states of Central Asia represents an important counterbalance 
to the extremism of Iran, Iraq and others. It increases the 
prospect for peace in the Middle East. As such, this process is 
decidedly in the U.S. national interest.
    The gentleman from California's amendment is fully in 
keeping with the spirit of the legislation. Programs as the one 
he describes are important tools to foster better relationships 
not just between the U.S. and Central Asia, but also between 
Israel and the region.
    I fully support the amendment. It gives me an opportunity 
to make an important observation as well. My colleagues should 
know that a broad coalition of American Jewish organizations 
support the passage of the Silk Road Strategy Act: The B'nai 
B'rith, the American Jewish Committee, the American Jewish 
Congress, the Anti-Defamation League, the National Conference 
on Soviet Jewry, the President's Conference, the Jewish 
Institute for National Security Affairs, AIPAC, and the 
Orthodox Union. These groups have issued a statement that says, 
``We are confident that genuine independence, peace and 
prosperity for all of these countries of the Southern Caucasus 
and Central Asia will benefit the national interest of the 
West, Israel, Turkey and other regional allies. The Silk Road 
strategy will promote these goals as well as helping to pave 
the way for the support of democratic values in the region that 
has been subjected to foreign domination for hundreds of years. 
We are also confident, they go on to say, that the 
legislation's implementation will improve the lives of tens of 
thousands of Jews who live in these former Soviet republics.''
    I urge support for the Berman amendment.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Any other Member seeking recognition? If not, I would just 
like to note that I am pleased to support the Berman amendment. 
I believe programs sponsored by the Government of Israel in 
Central Asia deserve our support and continue to produce good 
results in that region.
    If there is no other Member seeking recognition, all in 
favor of the amendment signify in the usual manner.
    Opposed.
    The amendment is agreed to.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I would advance the amendment 
offered by Mr. Burr in his behalf.
    Chairman Gilman. Amendment by Mr. Burr. The clerk will 
read. Clerk will distribute the Burr amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Burr. Page 12, line 
24, insert after `transferred to' the following: Comma, `or 
knowingly allowed to be transferred through the territory of 
such country to,'.''
    Chairman Gilman. Mr. Bereuter is recognized on the Burr 
amendment.
    Mr. Bereuter. Thank you, Mr. Chairman. Mr. Burr had another 
markup at Commerce Committee at this point, and I would ask 
that his full statement in support of the amendment be made a 
part of the record at this point. I would ask unanimous consent 
for that.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Mr. Chairman, I would like to speak about the 
gentleman's amendment. The gentleman offered this amendment in 
Subcommittee, where it surely would have been approved except 
for the fact that the Subcommittee did not receive jurisdiction 
over that section of the bill that he was attempting to amend.
    Needless to say, I support the gentleman's amendment. A 
major focus of the legislation, perhaps the most major focus, 
is working with the countries of the region to prevent a 
proliferation of weapons of mass destruction. Much of our 
assistance is directed at that effort through training of 
customs officials, law enforcement, education, finding work for 
former nuclear lab scientists and the like. This is an 
important component of the legislation because the arsenal of 
the former Soviet Union has become a prized target. The 
prohibitions on assistance are largely designed to alert the 
Central Asian Republics in the Caucasus region countries that 
participation in the deadly game of selling these deadly items 
to rogue regimes will result in repercussions, severe ones.
    The gentleman's amendment makes it clear that countries 
transshipping such items should also expect to be subject to 
sanctions. This is a helpful amendment and delivers a clear 
message regarding U.S. intent. I would urge adoption of the 
Burr amendment.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Any other Member seeking recognition on the Burr amendment 
as proposed by Mr. Bereuter?
    If not, I would like to note my support for the gentleman 
from North Carolina's proposal as offered in his absence by Mr. 
Bereuter. Nuclear proliferation in the region of the former 
Soviet Union is a potentially serious problem, and we 
appreciate the gentleman's effort to strengthen language in the 
bill and to address this problem.
    If there is no other Member seeking recognition, the 
amendment is now before us. All in favor, signify by saying 
aye.
    Opposed.
    The ayes appear to it have. The amendment is agreed to.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I have two amendments that I 
believe will strengthen the act.
    Chairman Gilman. Clerk will read the Rohrabacher amendment. 
Are they offered en bloc?
    Mr. Rohrabacher. I would ask the Chairman's advice.
    Chairman Gilman. We would welcome them being offered en 
bloc.
    Mr. Rohrabacher. I will be happy to offer them en bloc.
    Chairman Gilman. Thank you.
    Clerk will read the amendments offered by Mr. Rohrabacher. 
Clerk will distribute the amendments.
    Ms. Bloomer. ``Amendments offered by Mr. Rohrabacher. Page 
6, line 25, add the following after the period: `Any role by 
the United States in such'----.''
    Chairman Gilman. I ask unanimous consent that further 
reading of the amendments be dispensed with without objection.
    Chairman Gilman. Mr. Rohrabacher is recognized for five 
minutes on his amendment.
    Mr. Rohrabacher. Yes, sir. Thank you.
    Mr. Berman. Point of parliamentary inquiry, Mr. Chairman. 
Are we on two amendments en bloc?
    Chairman Gilman. En bloc.
    Mr. Rohrabacher. I have two amendments that I believe, as I 
say, will strengthen the act in the areas of promoting 
democracy and clarifying the role of Congress in any decision 
to deploy American military personnel to this volatile region.
    The countries of Central Asia which spent nearly a century 
under the iron grip of the Soviet Union are currently 
struggling to achieve some type of stability and prosperity in 
this century and in the next century. We should have no 
illusions about the pressure that these resource-rich nations 
continue to bear from Russia, Iran, China, Pakistan and 
terrorist organizations operating out of Afghanistan, such as 
the fanatical Taliban and their partner in crime, Mr. Bin 
Laden.
    The United States should do everything possible to assist 
these emerging nations. However, the culture of repression is 
still prevalent in governments that stretch from the Caucasus 
across the great Caspian Sea to Kazakhstan to the borders of 
China.
    My first amendment would enhance the progress in democracy 
by requiring, to be eligible for the provision of this act, 
that elections must be held in these countries which are 
certified as free and fair and must be free of criticism by 
international organizations such as the OSCE. In addition, in 
order to protect American businessmen and investors who 
currently face serious problems in transactions in these 
countries, the amendment requires that the President must 
certify that such countries' judicial systems provide 
appropriate recourse for judicial complaints lodged by citizens 
and investors, both foreign and domestic, to certify that such 
a judicial system and those systems are now undergoing the 
appropriate reforms to ensure a respect for human rights and a 
recourse of law, which, of course, is consistent with what Mr. 
Burton was just suggesting. Mr. Burton's amendment addresses 
this, but my amendment would actually insist on some 
institutional reform that would help protect American 
investors.
    As I say, we have heard many stories about investors being 
brutalized and being robbed by the governments in these areas.
    My second amendment, which is en bloc, requires any United 
States role in a peacekeeping operation in that region should 
be limited to logistics, observers and financial support 
through international organizations. The second part of my 
amendment requires that the U.S. role in any multilateral 
military cooperation agreement should not include the 
deployment of American forces unless approved by a vote of the 
U.S. Congress. So we are not outlawing any U.S. military 
involvement there, but at least there has to be a vote of the 
U.S. Congress before we start shipping our troops off to 
Central Asia.
    I strongly disagree with any language that would 
potentially commit American peacekeeping forces in Central Asia 
for three reasons. First, U.S. forces are already overextended 
on peacekeeping missions with our open-ended commitments in 
Bosnia and Kosovo. We also have a tinderbox situation in the 
Pacific with Taiwan and the Spratley Islands. In the Middle 
East we have Saddam Hussein, who is still lurking around the 
corner.
    Second, we are in an historic junction in our relationship 
with Russia. During these past few months, due to the expansion 
of NATO and the Kosovo intervention, the attitude among Russian 
military leaders, politicians and the public in general has 
grown resentful and even hostile toward the United States. Now 
is not the time to codify legislation that furthers the 
potential of incursions along Russia's border areas. It is 
preferable to send training missions, such as the recent 
training mission to Uzbekistan, to accomplish our missions and 
not to set forth a strategy that sends alarm signals to Russia.
    So I would ask support. I would yield to the Chairman.
    Chairman Gilman. Please continue.
    Mr. Rohrabacher. Third, the line of communications that we 
would have in that area would really strain our ability to 
protect any forces that were there.
    So I would ask support for my en bloc amendments. Thank 
you.
    Chairman Gilman. Thank you.
    Chairman Gilman. I recognize Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I am compelled to 
rise in objection and opposition to the gentleman's amendments 
en bloc. One of them I will attempt to amend and ask for a 
division so that it could be considered separately. I would say 
to my colleagues that I had received earlier three amendments 
from Mr. Rohrabacher, and I had examined those closely. These 
are new to me now, but it is clear that there are problems with 
both.
    Let me address the more lengthy amendment which is now 
being considered en bloc, which is the one which starts, ``Page 
12.'' If you take a look at subparagraph 2(b), the judicial 
system of such country that provides appropriate recourse for 
judicial complaints and so on, lodged by both domestic and 
foreign nationals, is undergoing appropriate reforms to ensure 
such appropriate recourse.
    That is certainly a desirable objective, but really, this 
comes down to a ``chicken and egg'' situation. If these 
countries had already established political and legal 
structures, including appropriate judicial systems compatible 
for democracy and free market economy, this legislation would 
not be as urgent and essential as it is. What we are trying to 
do is effect the creation and further refinement of democratic 
institutions in the legal structure, including the judicial 
system. That is the purpose of the legislation. This is perhaps 
a sharp philosophical, difference, so it is a matter of timing 
that I would have with the gentleman from California.
    Remember, these countries have never had these kinds of 
democratic institutions. They were loose-knit tribal societies 
that were absorbed into the Russian/Soviet empire. Their first 
experiment with nation state status was the 1990 era. Almost 
without exception there were no preexisting democratic 
institutions from which they could draw. Despite this, many of 
them have made a substantial change. In Georgia, there has been 
a near 180-degree turnaround. President Shevardnadze has 
embraced USAID's five-point plan for democratization--made it a 
national policy. In Kyrgyzstan, elections have been free and 
fair. It is also true that a number of these countries have not 
allowed democratic institutions to flourish. That is why we are 
trying to have an impact there. In most of the countries the 
U.S. can contribute to this democratization effort by assisting 
the NGO's to emerge for the first time in those countries and, 
of course, by our own NGO's and other international NGO's. They 
are important building blocks that have never existed in those 
countries, and they are a prerequisite for a modern democracy.
    So I would say that is the reason why we are involved here. 
We don't have a judicial system that would be able to meet this 
certification, and therefore we cutoff eligibility. So it is 
really a vital kind of a change.
    Now, in the second amendment, the deployment of U.S. armed 
forces, unless approved by vote of the U.S. Congress--ladies 
and gentlemen of the Committee--this is going to draw a 
Presidential veto. This is Bosnia, this is Kosovo, this is 
peacekeeping deployment. That is what Mr. Campbell's 
involvement attempting to bring it before the Supreme Court was 
all about.
    I think it is highly desirable for the President to get our 
approval before moving peacekeeping activities, but he regards 
it as a constitutional responsibility and power that he has. So 
Mr. Rohrabacher's amendment, the shorter of the two, will 
clearly cause this legislation to be unacceptable, and I urge 
my colleagues not to approve it.
    At this point, in order to move along the debate, I know 
others want to speak, I would offer an amendment at the desk 
which does strike 2(b).
    Chairman Gilman. Clerk will report the Bereuter amendment.
    Ms. Bloomer. ``Mr. Bereuter moves that subparagraph 2(b) of 
the Rohrabacher amendment be stricken, and that is line 15 
through 19.''
    Chairman Gilman. Clerk will distribute the amendment.
    Ms. Bloomer. We don't have copies. It is handwritten.
    Chairman Gilman. Mr. Bereuter, on your amendment.
    Mr. Bereuter. I have explained the purpose of striking 2(b) 
because these judicial systems do not exist clearly in all 
these countries and cannot. That is why we are involved in 
aiding, so that in the future, at some time, an amendment such 
as the gentleman offers, after they have had an opportunity to 
work with us and establish a judicial system worthy of meeting 
these requirements, will be in place. At this time we are 
trying to help them. I will later ask for division so that the 
rest of Mr. Rohrabacher's lengthy amendment could survive, and 
I urge support of my amendment which simply strikes section 
2(b).
    Chairman Gilman. Mr. Berman.
    Mr. Berman. Mr. Chairman, I would like to ask the gentleman 
from California, the sponsor of the base amendment, under 
subsection B, am I correct in thinking that if, say, the 
Government of Kazakhstan asked that an AID-funded program 
involving representatives of the judicial conference come to 
Kazakhstan to create a program to provide a judicial process 
which would allow recourse for complaints lodged by both 
domestic and foreign nationals, that your amendment if it 
passed would prohibit that program because Kazakhstan did not 
have a judicial process which allowed recourse for both 
domestic and foreign nationals?
    Mr. Rohrabacher. Let me see if I have your question 
correctly. You are asking me whether the chicken or the egg is 
coming first here? The answer to your question is no. The 
answer is the very fact they are trying to organize a judicial 
reform process suggests they are going through judicial reform. 
This is not a fait accompli. If you will read the legislation, 
it is talking about a process. We expect people to be moving 
toward democracy, toward judicial reform rather than away from 
it in order to have the benefits of dealing with the United 
States.
    Mr. Berman. If the mere application by a country for a 
program to achieve these results thereby renders the 
limitations of your amendment meaningless, then the amendment 
goes from dangerous to meaningless.
    Mr. Rohrabacher. If the gentleman would note, I did not use 
the term ``meaningless,'' and I disagree with that 
interpretation.
    Mr. Berman. That is my conclusion. I just don't read it 
like that. I read the language as prohibiting programs to 
remedy the very problems the gentleman is seeking to achieve, 
and I urge support for Mr. Bereuter's amendment.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. I join in supporting Mr. Bereuter's 
amendment. I think we have Iran and Afghanistan playing all too 
dominant a role in this region, and I think we all would like 
to see the countries in the region develop democratic 
institutions and full-fledged judicial systems. Sometimes we 
don't get our nose under the tent in these countries when they 
have accepted all our values; and I think that if there were 
activities in these countries that you object to, I would like 
know what they are and what our government is now doing. It 
seems to me that the lesson of history is every time there is 
contact with the West, we undermine the totalitarian forces in 
a country, and what I would like to see is actually more focus 
on these countries.
    I know the gentleman's intent is a noble one and that he 
would like us to have these governments become democratic, but 
again, if the choice is noncontact and leaving them to deal 
with Iran and Afghanistan or finding ways to create contact 
that will nudge them, push them, get them to peaceful relations 
and more democratic institutions, then I think that is what we 
are doing, and for that reason I support the Bereuter 
amendment.
    Chairman Gilman. Any other Member seeking recognition?
    Mr. Bereuter, did you want to make a motion? First, we will 
take up the Bereuter amendment. All in favor of the Bereuter 
amendment signify in the usual manner.
    Those in opposition signify by saying no.
    The ayes appear to have it. The amendment is agreed to.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I ask for a division under the 
rules, the division between the two amendments that were 
offered and combined in en bloc.
    Chairman Gilman. Mr. Bereuter has requested division of the 
en bloc amendment. All in favor signify in the usual manner.
    Opposed.
    The en bloc now divided and back to the original form, but 
before we move on it, I would like to note my support to the 
amendment offered by the gentleman from California.
    Mr. Bereuter, with regard to democratization, we met just 
last week with the former Prime Minister of Kazakhstan whose 
efforts to run in a free and fair election for the Presidency 
have been stymied. His efforts to mount a slate of candidates 
in a parliamentary election have encountered similar 
obstructions. This amendment by Mr. Rohrabacher makes it clear 
that we expect truly democratic government in Central Asia and 
the Caucasus. The United States has provided and is providing 
assistance for democratization in countries such as Kazakhstan, 
but our efforts will be meaningless if they are met with 
oppression and corruption. Accordingly, I support the 
Rohrabacher amendment.
    We are now going to consider the peacekeeping amendment by 
Mr. Rohrabacher. All those in favor of the Rohrabacher 
amendment signify in the usual manner.
    Mr. Gejdenson. Parliamentary inquiry.
    Chairman Gilman. Please state your inquiry.
    Mr. Gejdenson. Where we are right now is we have separated 
Mr. Rohrabacher, as amended by Mr. Bereuter, having again 
separated the section that deals with peacekeeping from that 
dealing with elections, is that correct?
    Chairman Gilman. That is correct. We will first vote on the 
language relating to peacekeeping.
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. This basically is a vote on my first 
amendment which says that in order to deploy troops, you have 
to have a vote of Congress in that region; is that correct?
    Chairman Gilman. That is correct.
    Mr. Rohrabacher. OK.
    Chairman Gilman. The vote is now on the Rohrabacher 
peacekeeping amendment. All in favor signify in the usual 
manner.
    Opposed.
    The noes appear to have it. The amendment is defeated.
    We now go to the second amendment by Mr. Rohrabacher with 
regard to certification prior to eligibility. Anyone seeking 
recognition? If not, we will now consider it.
    Mr. Rohrabacher. I think to just be reminded, we are 
talking about democratic progress in order to be eligible for 
the benefits of this bill.
    Chairman Gilman. All in favor of the Rohrabacher amendment 
as amended signify in the usual manner by saying aye.
    Those opposed.
    The ayes appear to have it. The amendment is agreed to.
    Are there any further amendments? If there are no further 
amendments, the previous question is ordered on the bill. The 
gentleman from Nebraska Mr. Bereuter is recognized to offer a 
motion.
    Mr. Bereuter. Thank you, Mr. Chairman. I move that the 
Chairman be requested to seek consideration of the pending bill 
on the suspension calendar.
    Chairman Gilman. The question is now on the motion by Mr. 
Bereuter. All those in favor signify by saying aye.
    Opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection the chief of staff may make technical 
conforming and grammatical amendments to the bill just ordered 
reported. Without objection, the Chairman is authorized to make 
motions under Rule 22 in respect of this bill, counterpart in 
the Senate. Further proceedings on this measure are now 
postponed.
    I ask unanimous consent that the Chairman be authorized on 
H.R. 2415 to make motions under Rule 22 in connection with H.R. 
2415, S. 886 or counterpart from the Senate. Without objection, 
so ordered.
    The Committee stands adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             July 22, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4098.001
    
    [GRAPHIC] [TIFF OMITTED] T4098.002
    
    [GRAPHIC] [TIFF OMITTED] T4098.003
    
    [GRAPHIC] [TIFF OMITTED] T4098.004
    
    [GRAPHIC] [TIFF OMITTED] T4098.005
    
    [GRAPHIC] [TIFF OMITTED] T4098.006
    
    [GRAPHIC] [TIFF OMITTED] T4098.007
    
    [GRAPHIC] [TIFF OMITTED] T4098.008
    
    [GRAPHIC] [TIFF OMITTED] T4098.009
    
    [GRAPHIC] [TIFF OMITTED] T4098.010
    
    [GRAPHIC] [TIFF OMITTED] T4098.011
    
    [GRAPHIC] [TIFF OMITTED] T4098.012
    
    [GRAPHIC] [TIFF OMITTED] T4098.013
    
    [GRAPHIC] [TIFF OMITTED] T4098.014
    
    [GRAPHIC] [TIFF OMITTED] T4098.015
    
    [GRAPHIC] [TIFF OMITTED] T4098.016
    
    [GRAPHIC] [TIFF OMITTED] T4098.017
    
    [GRAPHIC] [TIFF OMITTED] T4098.018
    
    [GRAPHIC] [TIFF OMITTED] T4098.019
    
    [GRAPHIC] [TIFF OMITTED] T4098.020
    
    [GRAPHIC] [TIFF OMITTED] T4098.021
    
    [GRAPHIC] [TIFF OMITTED] T4098.022
    
    [GRAPHIC] [TIFF OMITTED] T4098.023
    
    [GRAPHIC] [TIFF OMITTED] T4098.024
    
    [GRAPHIC] [TIFF OMITTED] T4098.025
    
    [GRAPHIC] [TIFF OMITTED] T4098.026
    

</pre></body></html>
